<html>
<title> - ISRAEL, THE PALESTINIANS, AND THE ADMINISTRATION'S PEACE PLAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     ISRAEL, THE PALESTINIANS, AND THE ADMINISTRATION'S PEACE PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

                           Serial No. 115-112

                               __________

        Printed for the use of the Committee on Foreign Affairs
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-655PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a>                             
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Clifford D. May, founder and president, Foundation for 
  Defense of Democracies.........................................    10
Mr. Ghaith al-Omari, senior fellow, Irwin Levy Family Program on 
  the U.S.-Israel Strategic Relationship, The Washington 
  Institute for Near East Policy.................................    30
The Honorable Daniel B. Shapiro, distinguished visiting fellow, 
  Institute for National Security Studies (former United States 
  Ambassador to Israel)..........................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Clifford D. May: Prepared statement..........................    12
Mr. Ghaith al-Omari: Prepared statement..........................    32
The Honorable Daniel B. Shapiro: Prepared statement..............    42

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    74

 
     ISRAEL, THE PALESTINIANS, AND THE ADMINISTRATION'S PEACE PLAN

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The members of the subcommittee will come 
to order.
    Boy, I really hustled from our Lady Members American Heart 
Health photo. And I get over here, and Ann Wagner is already 
here, you know, with her fourth Cuban cafecito, and I hustled. 
I have got to get in shape.
    After recognizing myself and Ranking Member Deutch for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our witnesses. I apologize, 20 
minutes late and more. And without objection, the witnesses' 
prepared statements will be made a part of the record, and 
members may have 5 days to insert statements and questions for 
the record, subject to the length limitation in the rules. The 
chair now recognizes herself.
    During the campaign and since he took office, President 
Trump has repeatedly stated that it is his mission to achieve 
the ultimate deal. A negotiated peaceful settlement between 
Israelis and Palestinians, a simple task, as anyone who has 
ever heard of the Israeli-Palestinian conflict can tell you. 
Administration after administration, Secretary of State, after 
Secretary of State, all have had their eyes on the prize. 
Broker a peace deal between the Israelis and Palestinians and 
your name will be etched in the history books for all time.
    At this point in any previous administration, we would 
convene and ask ourselves the very same questions we always 
ask. Does the administration have a legitimate chance of 
brokering peace? What will it take to bring the parties to 
together to the negotiation table? What will the peace process 
look like? And can we build enough support and momentum to move 
the process forward?
    I am sure we would inevitably hear many of the same things: 
The status quo has not changed, the negotiation partners remain 
the same. But we remain hopeful, always hopeful, despite the 
fact that the players remain the same and we keep trying the 
same approach. Only this time, for better or for worse, we 
don't have the answers.
    We can't say for certain how we expect things to go because 
this administration has fundamentally changed the status quo. 
First, the administration allowed the waiver on the PLO office 
to lapse in November, limiting Palestinian activity in their DC 
office to strictly peace process-related activity.
    This was the first time an administration had done this. 
Then in December, the administration announced that the U.S. 
officially recognized Jerusalem as the capital of Israel, and 
that we would be moving our Embassy to the capital. This was 
the right decision. It wasn't just morally right, but it was 
also implementing longstanding U.S. law, which mandated that 
U.S. recognized Jerusalem as Israel's capital.
    Then the administration withheld U.S. contributions to 
UNRWA, a decision I support, and I hope we go further until we 
see much-needed reforms at this agency.
    These are the steps that no previous administration has 
taken, yet I believe they are long overdue, and I believe they 
are rooted in solid policy, ultimately aimed at wielding the 
leverage we have to further our own interests, but also to 
achieve peace between Israelis and Palestinians.
    Every administration that has come before has always 
operated in the same space,strictly diplomacy. This is an 
agreement between two parties, one a sovereign state, and the 
other, a people aiming to realize their own statehood. So the 
only way to resolve this, according to the conventional wisdom, 
is through diplomacy.
    But the Trump administration has approached this like a 
business deal. Not only has this upset the status quo, but it 
has thrown the Palestinian leadership into a ``what?'' kind of 
mode. They knew how to respond to every approach we made. Now, 
they are in unchartered territory. And this may work to our 
advantage, and ultimately, to the advantage of peace for the 
region.
    Some observers have stated that the administration has no 
real peace plan, and that it is making it up as it goes along. 
I am not so sure, and I think that we can see a pattern with 
the administration's decisions in recent months.
    It is unlikely that the President would make such clear 
statements about his desire to achieve the ultimate deal if he 
had no real intent to do so. After all, this is a man who 
prides himself on his deal-making skills. But critics are right 
to be concerned. The administration should have done more 
groundwork, presented a plan before making unilateral 
decisions. It would have given us a better chance to not only 
build our own case, but to build support from other actors, 
particularly the Arab states.
    It is hard to imagine getting an agreement without our 
being able to get support from these Arab states. And it should 
make clear to us, and to the parties, what its blueprint for 
peace is, because right now, all parties are uncertain what to 
expect from the administration, and at any given moment, the 
administration may change its objectives. We have seen that 
before.
    What we need now is a clear and decisive statement of 
intent from the administration. I hope that our panel can 
elaborate on what the administration can do to advance the 
prospects of peace, a peace we all have long pursued.
    Thank you again. And now I am so proud to yield to my 
friend and ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. I appreciate the 
opportunity to examine an issue that you and I have worked very 
closely on for many years. Support for Israel and peace and 
security in the Middle East has always enjoyed deep bipartisan 
support in Congress. And it is my hope that today we continue 
to affirm that support.
    I want to thank our witnesses for appearing. I want to 
especially thank Ambassador Shapiro for coming in from Israel 
to offer his unparalleled insight into these issues after 6 
years as our American Ambassador to Israel.
    Madam Chairman, I must say that I am struck by the title of 
today's hearing because we don't, in fact, know what the 
administration's peace plan is. And to the extent we are aware, 
no such plan exists. We have seen the President's envoy for 
international negotiation spend considerable time in the region 
getting to know the parties. That is positive. We have seen the 
President's son-in-law travel the Gulf, apparently trying to 
persuade our Arab allies to buy into some kind of push for 
peace. All of this is well and good. And this is certainly not 
the first administration to struggle with how to proceed here.
    What concerns me, and what I hope we have the opportunity 
to discuss today, is how approaching this issue without a 
strategy is potentially damaging to the prospects for peace 
and, ultimately, to U.S. interests.
    In February 2017, Israeli Prime Minister Netanyahu visited 
the White House. During public remarks, President Trump 
indicated that he would support whatever solution the parties 
agreed upon, saying, I am looking at two states and one state, 
and then he said he can live with either one.
    This marked a serious departure from longstanding U.S. 
policy backed by multiple international resolutions, but the 
only path to lasting peace is two states for two peoples, a 
safe and secure Israel living side-by-side with a prosperous 
Palestinian state, achieved through direct negotiations between 
the two parties.
    And that is challenging now, but this distancing has 
rightfully alarmed many, myself included, who believe that 
without American leadership working toward a two-state 
solution, our own security interests may be at risk as well.
    Israel is our strongest ally in the region. The security 
cooperation between our two countries is a vital component of 
our national security and of Israel's security. And there must 
be no question that the U.S. is committed to Israel security, 
as evidenced by the signing of an unprecedented new 10-year, 
$38 billion MOU negotiated by the Obama administration.
    It is really unsettling that when asked in an interview 
this week if Israel has the right to defend itself if Iran 
establishes permanent basis in Syria and Lebanon, the President 
said, ``I don't want to comment on that right now.''
    I fear that the current administration is playing fast and 
loose with diplomacy. In December, the President recognized 
Jerusalem as Israel's capital. And I want to join you, Madam 
Chairman, in stating unequivocally, that Jerusalem is and 
always will be the capital of Israel. But the decision to 
recognize Jerusalem didn't seem to be accompanied by any 
broader plan from the administration.
    In an interview this week, President Trump said that he has 
taken Jerusalem off the table. He also said that both sides 
would have to make hard compromises. Again, this just begs the 
question, what is the administration's plan and what is it 
ultimately hoping to achieve?
    The administration has worked hard to cultivate support 
from the Gulf. And the idea that those countries will play a 
role in pushing the Palestinians to negotiations, and, in turn, 
a deal, would see a new normalization of relations between 
Israel and the Arab states. That is not new. But the 
administration seemed to give a good faith effort to getting 
the Saudis and others on board.
    Then on Monday, the President tweeted that the U.S. has so 
stupidly spent $7 trillion in the Middle East. Well, we have 
spent money in the Middle East. We have spent it, obviously, in 
Israel; we have spent it in Jordan and Egypt to protect our 
mutual security interests, including Israel's security; we 
spent it to bolster our allies and our joint fight against ISIS 
and to counter Iranian threats. None of this spending is 
``stupid.''
    Further, even as his envoys talk up Palestinian economic 
development, the President seems to be ignoring a potential 
humanitarian crisis in Gaza that most in Israel have expressed 
deep concern about, and instead, has haphazardly cut off 
humanitarian assistance.
    Now, no one can argue that the best thing to ensure 
Israel's security is peace, but that is exceedingly more 
difficult when President Abbas, in his 14th year of a 4-year 
term, continues to desperately try to avoid direct 
negotiations, going to every capital looking for support and 
suggesting that he may leave Oslo.
    Now, I am not naive to the challenges at this moment facing 
the two-state solution. When we have conflicting and confusing 
messages coming from the U.S. Ambassador to Israel, the 
President's special envoy and the President himself, it makes 
it easier for members of Israel's Parliament to push a bill 
calling for the annexation of the West Bank, or for a prominent 
minister to say that Israel should ignore the U.S. on the issue 
of annexation.
    These are really difficult issues. Calls to cut off all 
humanitarian assistance and security assistance to the 
Palestinians has a very real impact on the lives of 
Palestinians, on their security, and on Israel's security.
    That said, we cannot look the other way when the PA 
continues to pay terrorists who carry out attacks against 
Israeli citizens. That is why the House passed the Taylor Force 
Act, and we urged the Senate to do the same.
    Madam Chairman, this committee has typically taken a 
bipartisan approach on foreign aid, on assistance that promotes 
human rights, on economic development, and security. We had 
bipartisan support for the Taylor Force Act and for Iran 
sanctions. Bipartisan support for Israel as it faces new 
threats along its northern border from Iranian presence in 
Syria and Lebanon, and we have historically had bipartisan 
support for a two-state solution for two peoples living side-
by-side in peace and security.
    I just ask that as we hear from our very well-informed and 
insightful witnesses, that we keep this spirit of 
bipartisanship in mind as we go forward here, and in 
particular, as we address these issues in Congress.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Very good. Thank you so much, Mr. Deutch. 
And that would be my intention as well. Thank you, my good 
friend.
    And now we will hear from our members. And I apologize 
again for being so late. And we will start with, keeping the 
Florida delegation groove going, Mr. DeSantis of Florida.
    Mr. DeSantis. Thank you, Madam Chairman.
    The President's decision to recognize Jerusalem was long 
overdue. It was the right decision. People had said, oh, you 
have to have a final settlement. But we have been doing this 
for 25 years. It has been the same outcomes over and over 
again. This shakes it up. It sends a direct signal to 
Palestinian Arabs: You are not going to drive Israel into the 
sea. You need to recognize their right to exist as a Jewish 
state, which you have never been willing to do. You need to 
stop funding the families of terrorists who murder Israelis. 
And then we will see if there is progress to be made.
    But I think the President's posture is right. He is 
basically saying he is going to support our strong ally Israel. 
He is not going to, hopefully, shoehorn them into making 
decisions that are going to be detrimental to their security. 
And I think that is the posture that we have to take.
    I am glad that we are having this hearing. I want to hear 
what the witnesses have to say. But at the end of the day, 
history has shown the Israelis have been willing to make really 
strong sacrifices, make really strong concessions--heck, 
concessions I probably wouldn't have been willing to make. But 
the Palestinian Arabs have never been willing to accept the 
legitimacy of a Jewish state in the Middle East.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ron.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for holding this hearing today.
    And thank you to our witnesses for being here.
    I have to say, like Ranking Member Deutch, I was really 
surprised when I saw the title of this hearing, ``Israel, the 
Palestinians, and the Administration's Peace Plan.'' I was 
surprised and excited to hear that the administration has a 
peace plan for the Israeli-Palestinian conflict. I can't wait 
to see it. But I am left wondering if it is one of those secret 
plans the President seems to be so fond of or one that we will 
ever get to see.
    And while I am thrilled to be welcoming such a 
distinguished and knowledgeable panel to testify before us 
today, I have to wonder, if we are going to have a hearing 
about the administration's peace plan for the Israeli-
Palestinian conflict, would it not make sense to have someone 
from the administration here to testify about it?
    But then I have to wonder, who would we have testify? Who 
exactly within the administrationis driving the policy on the 
Israeli-Palestinian issue? Is it Jared Kushner? Ambassador 
Friedman? Vice President Pence? Secretary Tillerson? The 
President himself? And, in the meantime, the position of 
Assistant Secretary for the Near Eastern Affairs Bureau remains 
unfilled.
    As much as I appreciate the hearing today, I think it 
highlights the fact that this administration has so far 
articulated no coherent policy for dealing with the Israeli-
Palestinian conflict. In fact, the competing voices, incoherent 
policy decisions, and lack of senior-level appointees only 
serves to further muddle this already complex issue.
    I hope our witnesses can shed some light on what is 
happening within the administration and whether a reasonable 
observer can discern any coherent policy out of the statements 
made and the steps that the administration has taken thus far. 
And I remain ever hopeful of that.
    And, with that, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, David.
    Mr. Donovan of New York.
    Mr. Donovan. Thank you, Madam Chairwoman.
    A path to peace between Israel and the Palestinian people 
is a complex process but one that is necessary to bring 
stability in the Middle East. I want to see all people thrive, 
but Hamas and the Palestinian Authority both make this 
impossible, with their infighting and a policy of paying out 
terrorists and terrorist families.
    Terrorism breeds violence and resentment, and the United 
States must do everything in its power to end it. The only 
simple part of this difficult issue is reconciliation cannot 
start until terrorism supported by Hamas, the Palestinian 
Authority, and other groups ends.
    I thank you, Madam Chairwoman, and I yield the remainder of 
my time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Donovan.
    And Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman. Thank you both to 
you and to the ranking member for having this hearing; to our 
witnesses for being here today.
    As has already been said, I have spent my entire life 
praying for, working for, peace for Israel and her neighbors, a 
peace that would be two states, living in prosperity, with 
security. A Jewish state of Israel, with Jerusalem as its 
capital, as it has been for the Jewish people for 3,000 years.
    It is critical that the U.S. has a role in this. Over the 
course of my lifetime, I remember in the 1970s first when Sadat 
went to Jerusalem and the role the United States had in 
achieving peace between Israel and Egypt; in the 1990s, as the 
dynamic was changing, the role the United States played in 
ensuring and delivering peace between Israel and Jordan.
    And so, if there is to be peace, it must come with a U.S. 
role--a U.S. role that recognizes Israel is our strongest, most 
important ally in the region, recognizes that Israel must have 
security as a Jewish state, but recognizes that without the 
United States, Israel can't have the confidence to proceed.
    I look forward to the testimony today. And, with that, I 
yield back.
    Ms. Ros-Lehtinen. Thank you so much, Brad.
    Mr. Mast of Florida.
    Mr. Mast. Thank you, madam.
    You know, peace has been elusive, but it is my opinion that 
it is closer and more attainable than it has ever actually 
been, and that is because of the blunt honesty that is finally 
being applied to our foreign policy.
    You look at what has gone on year after year. The 
Palestinian Authority, much of the Middle East, much of the 
world, they pretend, because of the sensitivities of a few, 
that Jerusalem is not Israel's capital. America has said, ``We 
will no longer pretend.''
    And you look, year after year, the Palestinian Authority's 
chief negotiating tool is terror--bombings, stabbings, 
shootings, driving over people, rocket attacks. They do that 
with one hand, while with the other hand they shop around the 
United Nations for anybody that will naively view them as a 
victim, all while receiving U.S. aid, only to turn it over as 
blood money to the terrorists and the families who attack 
Israel. Congress and the President have said, ``No more blood 
money.''
    I believe that peace is more possible than ever because, 
finally, our foreign policy is reflecting that we are not going 
to pursue peace and negotiate peace with our enemies. We are 
only going to pursue peace with those who can declare and 
demonstrate that they are a former enemy, and that is the place 
that we need to be.
    Ms. Ros-Lehtinen. Thank you, Brian.
    Mr. Suozzi of New York.
    Mr. Suozzi. Thank you, Madam Chairwoman.
    Thank you to our distinguished witnesses for being here 
today. Missing from the table, however, are the administration 
officials. I do hope that one day Congress can get a clear 
picture of the administration's plan from our colleagues over 
at the executive branch.
    Palestinians have spent the past 2 months complaining about 
the President's decision to recognize Jerusalem as Israel's 
capital. I supported that decision then, and I still support it 
now. It was the long overdue recognition of a reality. 
Jerusalem has been the seat of Israel's Government for decades 
and the focal point of Jewish life for millennia. And, in many 
ways, it was a symbolic decision. It hasn't changed the 
realities on the ground, and any effort to blame that decision 
for ending a peace process that was defunct to begin with is 
disingenuous.
    But exactly that is the plan of the Palestinians. For 
almost a year, the Palestinians met with the President's team 
over 20 times. Mr. Abbas himself met with President Trump 
personally on four occasions. And now, before we have even 
heard what the administration's peace plan is, the Palestinians 
have pulled out of the process.
    Recently, Mr. Abbas was in Sochi meeting with Vladimir 
Putin. He wants the Russians to take over the negotiations, the 
same Russians who have backed a murderous regime in neighboring 
Syria. A regime that just this weekend, allowed Iran to menace 
Israel with a military drone and then shot down an Israel jet.
    Sadly, this is the same double game that is not new, and it 
has always been played. For too long, they say they want to 
resume negotiations with Israel even as they pursue unilateral 
diplomatic moves against Israel. They say they oppose violence 
even as the Palestinian Authority pays millions of dollars to 
families of terrorists, a demented practice that this Congress 
is trying to end.
    We all want to see an end to this endless conflict. We need 
to know the administration's plan, and we need the Palestinians 
to stop playing games.
    Ms. Ros-Lehtinen. Thank you, Tom.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    I am very happy to discuss the new policies, even though 
they are yet to be defined, because at least we know that we 
are going to replace the policies of the last administration 
that created havoc in the Middle East, undermined all the 
moderate forces in the Middle East, and unleashed radical 
Islamic terrorists throughout the region. Yeah, whatever we do 
to discard those policies, that is a good policy, in my mind.
    You know, we have Israel always under attack in situations 
like this. They are always under attack because supposedly they 
are to blame for not giving up more to the Palestinians. And 
let's just note: Israel over the last three decades has given 
up the West Bank, they have given up authority there, all of 
Gaza. They have withdrawn totally from the Sinai Desert. All 
they want is not to be attacked, and they can't even get that 
agreement enforced.
    Right now we understand the Palestinians have given up 
nothing. If there is a roadblock to peace, let's focus on 
trying to pressure the Palestinians instead of trying to 
pressure Israel, and let's reward Israel, the way our President 
has just done.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Dana.
    Mr. Lieu of California.
    Mr. Lieu. Thank you, Madam Chair. Thank you for calling 
this hearing.
    I do want to echo what some of my colleagues have said, 
which is that it is not helpful to have zero administration 
officials here talking about the administration's peace plan.
    Jared Kushner in December said that we know the details in 
the plan. I actually don't believe him. I don't believe there 
is a plan. But we should have him here to testify under oath 
about what the plan is. It is also important to note: Does he 
run Middle East policy, or is it the Secretary of State, or is 
it somebody else?
    So we don't have administration officials here to talk 
about what is in a plan and we don't even know who is running 
Middle East policy. It is not helpful, I think, very much for 
this hearing to just sort of guess at what is actually 
happening in the White House.
    I do appreciate the witnesses being here. I do look forward 
to hearing what you are going to guess about. But, ultimately, 
we are going to have to have administration officials here.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ted.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair. I will be very quick, 
which is this--and I appreciate everything all my colleagues 
have said.
    This is such a contentious Congress, we fight about 
everything. I think it is very important that there is one 
thing we do not fight about, the peace and security of Israel. 
And I hope it maintains itself as a bipartisan issue.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    And seeing no--Mr. Zeldin of New York. I apologize.
    Mr. Zeldin. Well, thank you, Madam Chair.
    Just to share some thoughts, after hearing some of my 
colleagues speaking about, with curiosity, as to the 
administration's chain of command inside of the White House. My 
understanding is that Jared Kushner, Jason Greenblatt, and H.R. 
McMaster, the Secretary of State--in charge of the State 
Department policy--Ambassador Haley as the Ambassador to the 
United Nations--doing whatever is in her lane as the United 
States Ambassador to the United Nations--are all under a chain 
of command reporting to the President of the United States. 
Make the decisions as it relates to moving the Embassy from Tel 
Aviv to Jerusalem, recognizing Jerusalem as the capital of 
Israel, choosing to better leverage our aid that we provide to 
the United Nations, and cutting off aid to the Palestinians as 
long as they continue to incite violence and financially reward 
terrorism.
    So that is the chain of command that reports to the 
President of the United States. Those are the people running it 
inside the White House, in the State Department, and at the 
United Nations. It is pretty clear to me and to others who have 
been paying attention.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Lee.
    And now it is my honor to introduce our panelists.
    Thank you again for your patience.
    First, we are delighted to welcome back Mr. Clifford May, 
founder and president of the Foundation for Defense of 
Democracies. Prior to this post, Mr. May was a foreign 
correspondent and editor for The New York Times and other 
publications. And in 2016, Mr. May was appointed to the United 
States Commission on International Religious Freedom by Senator 
Mitch McConnell.
    Thank you for being here today, Clifford, and we look 
forward to your testimony, sir.
    Then, we will be delighted to welcome Mr. Ghaith al-Omari--
did I do okay? Thank you, Ghaith. Ghaith is the senior fellow 
of the Irwin Levy Family Program on the U.S.-Israel Strategic 
Relationship at the Washington Institute for Near East Policy. 
Prior to this position, he served in various roles within the 
Palestinian Authority, including as adviser to the negotiation 
team during the 1999 to 2001 permanent status talks.
    We are very excited for your testimony. Thank you so much 
for joining us.
    And, finally, we are so delighted to welcome to our 
subcommittee a good friend of most of us here in the 
subcommittee, Ambassador Daniel Shapiro. He is currently the 
visiting fellow at Tel Aviv University's Institute of National 
Security Studies. And prior to this position, of course, 
Ambassador Shapiro served as our Ambassador to Israel during 
the previous administration. Among his many other positions, 
Ambassador Shapiro has also served as Senior Director for the 
Middle East and North Africa on the National Security Council.
    Thank you. It is great to see you again. And you always 
made time to visit with all of the delegations that came over 
to Israel. It is so great to have you here.
    So we will begin with you, Mr. May, and then work down the 
line. Thank you, Cliff.

   STATEMENT OF MR. CLIFFORD D. MAY, FOUNDER AND PRESIDENT, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. May. Madam Chairman, Ranking Member Deutch, members of 
the subcommittee, on behalf of the Foundation for Defense of 
Democracies, I thank you for this opportunity to testify.
    As you pointed out just now, there have been significant 
changes in U.S. relations with Israel and the Palestinian 
Authority--among them, U.S. recognition of Jerusalem as the 
capital of the Jewish state, the withholding of some assistance 
from UNRWA until it provides greater transparency, and an 
attempt to counter actions at the U.N. intended to demonize and 
delegitimize Israel.
    All this is taking place as the Trump administration 
attempts to build their new regional framework with the Arab 
Sunni states, threatened by the hegemonic ambitions of the 
Islamic Republic of Iran. These states now recognize that their 
security interests with Israel coincide.
    Despite these developments, all deserving of your support, 
I am going to argue that any new peace process should be seen 
as only preliminary--small steps, but in the right direction. 
It is unlikely that the Palestinian-Israeli conflict can be 
resolved in the foreseeable future.
    One of the reasons why became vivid last weekend when Iran 
provoked a clash with Israel. Note that no Palestinian leader 
condemned this Iranian provocation, no Palestinian leader has 
ever condemned the Iranian regime, whose intentions toward 
Israel are openly exterminationist.
    Hezbollah, Tehran's proxy, has tens of thousands of 
missiles pointing at Israeli targets from Lebanon, a country 
that it now effectively rules. Hezbollah is openly genocidal 
toward both Israelis and Jews. Hezbollah's leader, Hassan 
Nasrallah, has said, ``If the Jews will gather from all parts 
of the world into occupied Palestine, there the final and 
decisive battle will take place.'' Hamas, the major power in 
Gaza, holds identical views about Israelis and Jews.
    In this environment, it would require a Palestinian leader 
of enormous independence, charisma, and courage to negotiate a 
resolution of the conflict with Israel. Mahmoud Abbas is not 
that leader.
    Elected to a 4-year term as Palestinian Authority President 
in 2005, Mr. Abbas has remained in that position without 
benefit of reelection. In recent statements, he made it clear 
that he does not accept the basic premise of a two-state 
solution, two states for two peoples, one of those peoples 
being the Jewish people. He does not recognize that the Jewish 
people have a right to self-determination in any part of their 
ancient homeland. He recently said that Jerusalem is Arab, 
Muslim, and Christian, conspicuously omitting Jerusalem's 
Jewish roots.
    It has been years since Mr. Abbas has been willing to 
negotiate with Israelis. Instead, he has taken part in a 
campaign to delegitimize Israel. This includes U.N. Security 
Council Resolution 2334, which asserts that Israel has no 
rights in eastern Jerusalem--not even the Jewish quarter of the 
old city; not even Judaism's holiest sites, the Western Wall 
and the Temple Mount.
    The administration's recognition of Jerusalem as Israel's 
capital has at least helped halt the momentum of this very 
destructive narrative. It is important to understand, this 
campaign has the strategic intent of justifying attacks against 
Israel by Iran, Hezbollah, Hamas, and others as a resistance to 
an illegitimate regime that sooner or later is to be fatally 
poisoned by a cocktail of violence, economic warfare, and 
diplomacy.
    At some point after Mr. Abbas leaves the scene, a new peace 
process may be developed, but that will depend on who succeeds 
him. According to Palestinian basic law, after 60 days there 
are to be free elections. How likely is that? And if, as has 
been the pattern in the Middle East for centuries, power is 
taken by force of arms instead, who is likely to prevail? 
Hamas? Hezbollah? Other jihadi groups?
    Working with Saudi Arabia and other partners, perhaps it 
may be possible to develop a next generation of Palestinian 
leaders who do not view peaceful coexistence with Israel as 
tantamount to defeat, but the magnitude of this challenge 
cannot be overstated.
    I elaborate on these and other issues in my written 
testimony and offer more than a dozen recommendations--small 
steps in the right direction. I look forward to your questions. 
Thank you.
    [The prepared statement of Mr. May follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, sir.
    Mr. al-Omari.

  STATEMENT OF MR. GHAITH AL-OMARI, SENIOR FELLOW, IRWIN LEVY 
 FAMILY PROGRAM ON THE U.S.-ISRAEL STRATEGIC RELATIONSHIP, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. al-Omari. Thank you very much, Madam Chairman, Ranking 
Member, esteemed members. It is an honor to be here.
    The administration seems intent on presenting a peace plan. 
There has been a lot of speculation, particularly in the Arab 
press. The reality is we do not know what is in this peace 
plan. It is being held very close in a very small circle.
    Yet I would submit that, no matter what the peace plan 
looks like, no matter how balanced, no matter how well thought 
through, right now it is going to fail. And it is going to fail 
because of domestic politics among Palestinians, Israelis, and 
the region.
    In Israel, the coalition of Prime Minister Netanyahu very 
strongly constricts his ability to make decisions. His legal 
troubles, that we saw yesterday, do not make things easier.
    On the Palestinian side, President Abbas has a 30-percent 
approval rating. Seventy percent of the Palestinians want him 
to leave. He is not a leader who is capable of making the 
difficult decisions that we need to see.
    The decisions by the administration on Jerusalem in 
particular but also UNRWA have complicated things for the 
Palestinians and for the Arab states.
    For the Palestinians, as a matter of principle and as a 
matter of political expedience, Abbas thought that he has to 
take a hardline position. Some of the policies he is adopting 
are questionable. Some of the statements that he made are 
unacceptable, especially those that deny the Jewish connection 
to the land. Yet he is in a difficult position.
    On the Arab side, the Jerusalem decision, in particular, 
has diminished the ability of Arab states to pressure and to 
leverage the Palestinians because they have to be seen on the 
same side of this issue.
    All of this does not bode well for the success of a peace 
process. And failure in this particular case comes with a 
price, particularly seeing how tense things are on the ground. 
This price could be a price in terms of security and a price in 
terms of the potential collapse of the P.A.--in no one's 
interest.
    That said, I do not believe that it is a wise approach to 
totally neglect the peace process. Instead, the administration 
needs to have less ambitious objectives that are achievable. In 
particular, I think there are four areas that need to be 
focused on.
    One, and the foremost and most important, is security. 
Security and security cooperation between the Palestinians and 
the Israelis is probably one of the very few success stories we 
have seen from that region over the last few years. We saw it 
in action only this last weekend. The Palestinian security 
forces, under American support, have become professional, 
reliable partners by the admission of Israeli security leaders. 
We need to continue doing this. Specifically, we need to 
continue directly supporting the Palestinian security forces 
and the Office of the U.S. Security Coordinator, the three-star 
general, who has been doing a fantastic job in supporting 
security and security cooperation.
    Second, the West Bank. Things in the West Bank are tense. 
Emotions are high. Things are volatile. Luckily, because of the 
security cooperation, the Israeli defense establishment has 
actually conceptualized a number of projects to support the 
West Bank. Many of these projects, though, got stuck in Israeli 
internal political wranglings. We should engage Israel to see 
how we can apply some of these particular projects, approved 
and suggested by the IDF, particularly when it comes to 
Palestinian access to Area C and to giving Palestinians more 
building and zoning rights around urban Palestinian areas.
    Three, Gaza. Gaza is--the situation there is, from a 
humanitarian point of view, unconscionable. This could lead to 
a war. Ideally, aid to Gaza should come through the Palestinian 
Authority. However, reconciliation has failed, and it is likely 
to fail in the foreseeable future.
    So, in the immediate term, I think there are three things 
that need to be done. A, we directly and through our allies 
should pressure the Palestinian Authority to remove some of the 
punitive measures they have put on Gaza in the last year. This 
is key to bring a degree of stability. We need to work with 
Israel and the U.N. to finetune how we provide aid to Gaza. 
And, finally, we need to engage Arab countries, particularly 
those that have negative perceptions of Hamas, to get them to 
be more active. I am thinking United Arab Emirates, Saudi 
Arabia, working through Egypt.
    Fourth, and quite importantly in my view, is the issue of 
Palestinian reform. This is an issue that has been on the back 
burner since the days of George W. Bush. This is key. When 80 
percent of the Palestinians believe that their government is 
corrupt, it is very hard to see how they will trust this 
government to make the kind of concessions that need to be 
made.
    In conclusion, I would say, none of the above will bring 
peace. Peace can only come in a two-state solution that is 
negotiated between the parties. What these measures, though, 
can do is that they can stabilize the situation on the ground, 
buy us time, and if the sides are wise and employ the right 
kind of political messaging, they can start reversing some of 
the negative perceptions that each side has of the other.
    Thank you very much. And I am looking forward to the 
questions.
    [The prepared statement of Mr. al-Omari follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. You must be a 
favorite on the speaking circuit, because you are brief, to the 
point, and boom, boom, boom. Thank you so much.
    Mr. al-Omari. That is my legal education.
    Ms. Ros-Lehtinen. That is your schtick. All right, thank 
you.
    Ambassador Shapiro, welcome, and thank you so much for 
being with us.

  STATEMENT OF THE HONORABLE DANIEL B. SHAPIRO, DISTINGUISHED 
   VISITING FELLOW, INSTITUTE FOR NATIONAL SECURITY STUDIES 
          (FORMER UNITED STATES AMBASSADOR TO ISRAEL)

    Mr. Shapiro. Madam Chairman, Ranking Member Deutch, it is 
good to see you both. Members of the committee, thank you for 
the opportunity to testify today on a subject that is really 
what motivated me to get involved in public life and, indeed, 
brought me to my first job, on the staff of this very 
committee, 25 years ago.
    It was my judgment then and remains my judgment now that 
the two-state solution is the only outcome that can serve 
Israel's interests in security, recognition, and maintaining 
its Jewish and democratic character, Palestinian legitimate 
aspirations for self-determination and an independent state of 
their own at peace with Israel, and American interests in 
ensuring those outcomes and contributing to regional stability.
    Now, despite many predictions to the contrary, for the most 
part, the Trump administration has pursued an approach, if not 
a defined policy, well within the mainstream of traditional 
U.S. policy on this issue. While the President does not speak 
clearly in support of a two-state solution as the goal of U.S. 
policy, as I believe he should, his description of what he 
wants included in the ``ultimate deal'' leaves no doubt that 
there is no other outcome that would achieve all of those 
objectives.
    Other familiar elements of the policy include positive 
meetings with leaders of both sides, envoys who have earned 
goodwill and credibility throughout the region, a commitment to 
Palestinian economic development, and a clear, if somewhat more 
muted, effort to restrain Israel settlement construction.
    I agree, as has been stated, that there has been a lack of 
clarity, and it has been compounded by some of the President's 
confusing tweets. But I have to say that, while I have had 
many, many profound disagreements with the Trump administration 
on a wide range of issues, the issue that concerns me the least 
is their efforts to advance Israeli-Palestinian peace.
    But they have missed important opportunities and hit some 
bumps. The poor management of the decision regarding Jerusalem 
made things harder. Now, I strongly support recognition of 
Jerusalem as Israel's capital and the immediate relocation of 
our Embassy there. But had the decision been described in the 
broader context of the U.S. vision of a two-state solution, 
including addressing Palestinian aspirations in East Jerusalem, 
it would have both acknowledged an obvious fact and helped 
advance our strategic objective.
    None of that justifies the Palestinian overreaction, 
including the outrageous speech President Abbas delivered to 
the PLO's Central Council that has already been referenced. In 
my judgment, in that speech, President Abbas signaled the end 
of his own personal participation in efforts to achieve the 
two-state solution.
    This chain of events has left the Trump administration in a 
bind, with no way to get their plan out, at least until tempers 
cool somewhat, without it being dead on arrival.
    But, in fairness, there is currently no chance for an 
immediate breakthrough toward a peace agreement or even the 
resumption of negotiations. That is partially due to domestic 
political crises on both sides that have been referenced, 
partly due to the deep mutual mistrust, the waves of 
Palestinian terrorist attacks, the continued incitement and 
glorification of violence by Palestinian leaders, and Hamas' 
continued construction of rockets and tunnels. Those are all 
factors. So is the timidity of Arab states in beginning 
normalization with Israel. So is the Israeli settlement 
expansion, including in areas well beyond the settlement blocs 
near the 1967 lines, which makes a viable map of the two-state 
solution more difficult over time.
    In addition to Abbas' negative turn, it should also be 
recognized that the current Israeli Government is dominated by 
voices who openly oppose a two-state solution. That poses a 
major challenge to Prime Minister Netanyahu, who, while he is 
more ambiguous than he was in the past, has not walked back his 
famous 2009 Bar-Ilan University speech endorsing two states.
    So, in the current circumstances, I do not recommend that 
the administration try to bring the parties back to the 
negotiating table in the near future. Any talks they could 
arrange would almost certainly collapse, perhaps spectacularly.
    Rather, the administration should focus on preserving the 
two-state solution as a viable and achievable goal for the 
future, but postponing any actual negotiations until the 
atmosphere and the leadership dynamics have improved, almost 
certainly including new Palestinian leadership.
    First, keeping the two-state solution alive requires 
clarity from the United States that that is the outcome that 
remains our strategic objective.
    Then we should work with all relevant parties to take 
practical steps that put down anchors to help arrest the slide 
toward a binational reality: For Israel, expanding the areas in 
which Palestinian Authority can operate, permitting greater 
Palestinian economic development, and limiting construction in 
West Bank settlements to areas that can be accommodated in 
equivalent land swaps in a final status agreement.
    For Palestinians, continuing and upgrading their effective 
security cooperation with Israel and conducting a consistent 
campaign against incitement of violence and glorification of 
those who commit acts of terror. The Taylor Force Act will 
hopefully hasten the end of those unacceptable payments.
    For Arab states who already see Israel as a strategic 
partner against common enemies, beginning now to engage Israel 
in steps toward normalization.
    Finally, I hope the committee will support continuing those 
elements of our Palestinian assistance program that support 
security cooperation between Israel and the P.A. And contribute 
to improving humanitarian conditions for the Palestinian 
people. Congress should also consider additional approaches 
such as broader support for people-to-people programs and 
investing in the Palestinian high-tech sector.
    But looking a bit beyond the immediate policy questions, no 
matter how much Congress or the administration do, we should 
recognize that trends on the ground pose the danger of an 
unarrested drift toward a binational state. Many younger 
Palestinians say they are no longer focused on the goal of a 
two-state solution. Rather, they advocate holding out for full 
equal rights, with one person, one vote, in a single state. We 
should hear those voices.
    I also listen closely to the views of many of the ministers 
in the current Israeli Government, people with whom I have 
worked and consider friends even when we disagree, who oppose a 
two-state solution. They are very open about it and very 
sincere in favoring other options. I believe these options 
actually deserve greater study, because we might end up in one 
of them.
    But all of them are worse than a two-state solution. All of 
them would pose challenge to Israel's status as a Jewish and 
democratic state and its ability to maintain its security. Any 
could lead to renewed and sustained conflict. None deliver on 
Palestinians' legitimate aspirations for independence. And they 
would squander the real opportunity that exists for 
normalization between Israel and the Arab states. For all of 
those reasons, they would be worse from the point of view of 
U.S. interests.
    I worry about the implications of those outcomes for the 
bilateral U.S.-Israel relationship as well, which is both a 
strategic asset and a moral obligation. I have spent virtually 
my entire life working to build, support, and strengthen that 
relationship, including in the negotiations to produce the $38 
billion memorandum of understanding. I agree with former Vice 
President Biden, who said, ``If Israel did not exist, we would 
have to invent it'' because of the benefit this partnership 
provides for U.S. interests.
    So if we find ourselves drifting toward some version of the 
binational state, we should study carefully what would be the 
impacts on our relationship. If we go down that road, I favor 
doing it with our eyes open, as allies, trying to steer toward 
the least bad outcome.
    Thank you again for the opportunity to address the 
committee, and I look forward to answering any questions.
    [The prepared statement of Mr. Shapiro follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador.
    And we are thrilled with all of your testimonies.
    And we will begin our question-and-answer period with Mr. 
DeSantis of Florida.
    Mr. DeSantis. Thank you, Madam Chairman.
    Mr. May, in the lead-up to the President's announcement of 
recognizing Jerusalem as Israel's capital, there were a lot of 
people saying that this would just light the world on fire, 
everything was going to end. He made the announcement. 
Obviously, there were some people that weren't happy, but we 
did not see the reaction that many people predicted. Is that 
correct?
    Mr. May. Yes, that is correct. It was nothing like the 
predictions. There were announced 3 days of rage in the West 
Bank, but it was all fairly muted.
    I think what is very important to recognize is, first of 
all, this is a recognition of reality. Second, this is a 
recognition of Israeli sovereignty. And it is very important to 
push back against the narrative produced by U.N. Security 
Council Resolution 2334 that you will hear, that Israel has no 
rights to be in Jerusalem whatsoever.
    It is important to disabuse Palestinians of the notion that 
the Jews will eventually be driven from Jerusalem, that 
eventually the Jewish state will be wiped out. If there is to 
be a Palestinian state, it must coexist peacefully with the 
Jewish state and recognize that. And there hasn't been that 
recognition on the part, certainly, of Hamas, but also Mahmoud 
Abbas has not. And he has, in his most recent tirade, made very 
clear that he does not recognize the rights of a Jewish state 
to exist.
    So this was an important bit of honesty. We should have 
recognition that Jerusalem will continue to be the capital 
before the peace process begins, not at the end. And the peace 
process should include a process of normalization of relations. 
We can't wait until the diplomats have shaken hands. The 
Palestinian people must learn that they are going to live with 
Israel, not wipe Israel off the map.
    Mr. DeSantis. Yeah. I mean, I think you are right. I mean, 
this is a recognition of reality. And, first of all, the 
Jordanians, when they occupied it, that was not a legitimate 
sovereignty, after 1948. And I think only two countries 
recognized Jordanian sovereignty over Jerusalem and over the 
West Bank.
    And I think one thing that we have seen since 1967, 
Jerusalem is really a jewel of the world. All faiths can go and 
pray and worship in the old city. That was not the case when 
the Arabs occupied Jerusalem. Jews were systematically 
excluded. Christians were treated as second-class citizens. And 
so Israeli sovereignty, they have a good track record, and the 
stewardship has been great.
    In terms of moving forward, Mr. May, what has changed--has 
anything changed in Palestinian Arab society in terms of their 
views of the legitimacy of a Jewish state, in terms of their 
views of the Israelis?
    I look at the textbooks in these schools. I look at them 
naming streets after terrorists. I look at the payments to the 
families of terrorists. And that seems to me to be something 
that is widely embraced by the Palestinian Arab society.
    What are your thoughts on that?
    Mr. May. You are exactly right, Congressman. There has been 
nothing productive that has taken place. It has gone in the 
wrong direction, I would say. We do not have Palestinian 
leaders attempting to prepare their people for the idea of 
peaceful coexistence. The anti-normalization campaign makes 
this very difficult.
    In my testimony, I talk about SodaStream, Daniel Birnbaum. 
All he wanted to do was employ Palestinians and Israelis and 
Israeli Arabs, men and women, together in one place. And he 
found that he could do that, produce a good product, give good 
salaries. The BDS movement, or campaign, which is really what 
it is, was one of the reasons that factory, which was paying 
salaries four times what Palestinians could get elsewhere, was 
eventually shut down.
    If there is to be a peace process, it needs to start with 
the idea that we are going to develop neighborly and normal 
relations. And we don't have that at this moment. We don't have 
Palestinian leaders who are trying to prepare their people for 
peace. We have the celebration and incitement of terrorism and 
the rewarding of terrorists, that needs to change. And only 
then can a productive and realistic peace process, one that 
doesn't fail, as previous peace processes have, only then can 
it begin.
    Mr. DeSantis. Ambassador Shapiro, you alluded to 
Netanyahu's support for a two-state solution. But if you listen 
to what he says, I mean, he does say that, but he wants, 
really, a neutered--something less than a state, it seems to 
me. Israel would still control the Jordan Valley. It would be a 
demilitarized state. So there would be perhaps some 
sovereignty, but they would not be permitted to exercise the 
full range of sovereignty.
    Is that a fair reading of what Netanyahu has proposed? And 
what do you think of that vis-a-vis a full sovereignty?
    Mr. Shapiro. I think his more recent statements have tended 
in the direction you are describing. He has sometimes used the 
phrase, ``state minus.'' He has been more specific about the 
presence of the IDF after the end of that process than he had 
been previously. He has been clear that he doesn't envision the 
removal of Israeli settlements from any part of the West Bank, 
and definitely something far less than a fully sovereign state.
    In his earlier statements, going back to the Bar-Ilan 
University speech, he was less specific and spoke about a 
demilitarized Palestinian state that recognizes the Jewish 
state. Perfectly reasonable and understandable conditions for 
the establishment of that state.
    And I think everyone understands that the emergence of a 
Palestinian state after full recognition and with the full 
commitment to Israel's security needs will be sovereignty 
compromised to some degree, and its leaders would have to agree 
to that as part of the agreements and treaties establishing 
that state.
    But there is probably a limit to what a Palestinian leader 
can sell to their own people as the achievement of Palestinian 
aspirations. And how it is described and what the specific 
functional aspects of those sovereignty limitations that are 
voluntary, that maybe include outsiders to help meet the 
security needs of all sides, is something that, actually, a lot 
of work has been done on.
    Former General John Allen was a leader of an extensive 
effort between the U.S. military and the IDF to define the 
security requirements of a two-state solution and start to come 
up with solutions--technological, training, joint operations 
with Jordan, Palestinian forces, Israeli forces, perhaps 
outside forces as well.
    There is a lot of work that has been done on that that is 
available the next time there are serious negotiations. And I 
believe solutions can be achieved that will ensure Israel's 
security and ensure that Palestinians have a sufficient degree 
of sovereignty that they can absorb it within their own 
politics.
    Mr. DeSantis. My time has expired. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ron.
    And now our ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    Ambassador Shapiro, as an Ambassador, you know the 
importance of every word that comes out of the President of the 
United States or his representatives in Israel.
    So the President acknowledges Jerusalem as the capital of 
Israel. We have talked about the importance of that statement. 
The President wasn't willing to commit to Israel's ability to 
defend itself from potential Iranian bases in Syria. The 
President backs the end of the martyr payments, then in that 
same interview said he didn't want to comment on BDS. His 
Ambassador says settlements are part of Israel. The President 
then says that settlements are something that complicate and 
have always complicated making peace.
    The President threatened to cut off aid to Palestinians, 
but the Secretary of State, who is in the region visiting 
Jordan and Lebanon but not Israel, today says, ``I understand 
President Abbas, his concern about certain steps and decisions 
taken by the United States.''
    As someone who was sent to represent the United States by a 
United States President, how does the Israeli Government and 
the Israeli public decipher what has seemed to be a whole array 
of different messages? And in what direction does that lead us, 
when there are so many messages out there?
    Mr. Shapiro. Mr. Deutch, I believe the Israeli public and 
the Israeli Government perceive the Trump administration as 
very friendly, as very supportive, and I think rightfully so. 
Obviously, the President's own visit, Vice President Pence's 
visit, the support Ambassador Haley has provided in the United 
Nations are ample evidence of that degree of support.
    At the same time, what you have just described are a litany 
of statements that do create a lot of confusion about what 
indeed is the U.S. policy. People have been, for a year now, 
trying to decipher what the President means when he talks about 
the ultimate deal, which, as he describes in other statements 
that, if you piece together, includes a peace agreement reached 
between Israelis and Palestinians in direct negotiations that 
meets Israel's security needs, provides self-determination to 
Palestinians, and opens Israel's relations to the Arab world. 
Those are the elements that I think can only be achieved in a 
two-state solution, and yet he has resisted providing that 
clarity.
    That has led, as you noted earlier, some Israeli leaders to 
believe that, in fact, he is giving support to move toward 
annexation or moves that would in other ways make the emergence 
of an independent Palestinian state later, after there is 
different and more flexible Palestinian leadership, impossible. 
And yet there are others who hold on to what he says and say, 
no, no, he still intends to be the one who will bring about the 
ultimate deal, as they understand the two-state solution.
    More broadly in the region, you mentioned there is 
confusion and a sense of American withdrawal. I know some 
people will say that began in the Obama administration. 
Nevertheless, we are now dealing with a year of the Trump 
administration.
    Secretary Tillerson's trip this week visiting Egypt, 
Jordan, Lebanon, and Gulf states right after this very dramatic 
event on Israel's northern border and not coming to Israel has 
certainly raised questions about what is the U.S. role in 
supporting Israel's need to defend itself against Iran and 
Syria.
    Mr. Deutch. And when--and this is for the panel. Since we 
don't have someone from the administration to respond to this, 
I will ask the three of you to speculate.
    The question the President was asked, will Israel have to 
give something in return for the decision on Jerusalem, and his 
response was, ``I think both sides will have to make hard 
compromises to reach a peace agreement.'' What do you think he 
is referring to?
    Mr. May?
    Mr. May. Recognizing Jerusalem as the capital of Israel 
does not preclude the possibility that a future Palestinian 
state could have its capital either in eastern Jerusalem or 
near eastern Jerusalem. I think the President has been clear 
that that is to be worked out between the two parties.
    Mr. Deutch. That is the hard compromise?
    Mr. al-Omari, what do you think he is referring to?
    Mr. May. Can I just say I don't think there needs to be a 
compromise for recognizing Jerusalem as the capital, which it 
is and which this committee and others has said it is for years 
and that I know you have.
    Mr. Deutch. And I have as well. I am just trying to 
decipher the President. When the President talks about both 
sides having to make hard compromises, I am just trying to 
understand what that might mean.
    Mr. al-Omari. Again, there is no clarity, so we have to 
basically piece together some of the disparate statements out 
there.
    And it seems to me, on the Israeli side, the difficult 
compromises they have in mind is, one, you know, two capitals 
in Jerusalem. And this was lost in the messaging, which was, I 
think, as was referred to, confused and sometimes 
contradictory, but, actually, if you look at the fine print, it 
is there. And I think this is one of the first compromises.
    The second is when the President started talking about 
settlements. He talked about it earlier in his term, and he 
talked about it this weekend in an interview with an Israeli 
newspaper in which he said these are not helpful for peace.
    These are the kind of compromises that he might be thinking 
of. But, frankly, we will not know unless there is a plan. And 
the problem is, in the absence of a plan, others get to fill 
the void. We have seen messaging coming from Iran, from Qatar, 
from other countries, that is basically throwing the worst 
possible light on a future American plan, which has already 
hardened positions. So there might be some wisdom in 
withholding a plan, but if we create an expectation and leave a 
void, others will fill this void in ways that are not good for 
us.
    Mr. Deutch. And, Madam Chair, just if I may, Ambassador 
Shapiro, having served as Ambassador in the Obama 
administration, where many had expressed concern about the 
administration laying out a plan and then forcing Israel to 
accept certain provisions of a plan that most of us believe can 
only be achieved at the negotiating table, is that exactly what 
President Trump is contemplating here?
    Mr. Shapiro. Well, I would be going well beyond my 
understanding if I told you what President Trump is 
contemplating.
    I do believe that, at some point, greater clarity would 
actually be helpful. Certainly clarity about the end state of a 
two-state solution. I believe the clarity about the recognition 
of Jerusalem as Israel's capital actually was very helpful for 
all the reasons that have been stated, recognizing a fact and 
pushing back on a Palestinian myth about the illegitimacy of 
Jewish history and Jewish presence and sovereignty in 
Jerusalem.
    I think it would have been even better had the other parts 
of the statement been highlighted to make clear that a 
Palestinian capital in east Jerusalem as part of the ultimate 
disposition of this conflict can also be possible.
    I think, frankly, the President's--rather, the White 
House's clarity this week that moves toward annexation of parts 
of the West Bank would not be helpful and it does not support 
them was another point of useful clarity.
    But, again, we are trying to pull out pieces of this, when, 
at some point, a presentation of greater clarity on end states 
and principles, even if we are not moving into immediate 
negotiations, I do think would be helpful for setting 
expectations and keeping two states alive for a later 
negotiation.
    Ms. Ros-Lehtinen. Thank you so much, Ted.
    Mr. Zeldin of New York.
    Mr. Zeldin. Well, thank you, Madam Chairman.
    I appreciate the conversation here. I have heard 
``clarity'' used a lot as it relates to messaging, policy, and 
chain of command.
    And, Ambassador Shapiro, I am very appreciative of your 
service to our country. I saw it firsthand in Jerusalem, how 
well respected you were and the amount of time and energy that 
you put toward your duties.
    I might have a few uncomfortable questions for you, just 
continuing the conversation of clarity of messaging, policy, 
and chain of command.
    Are you familiar with a meeting that the former Secretary 
of State had with Hussain Agha in London recently?
    Mr. Shapiro. I have read press reports about that meeting. 
That is as much as I know, what everybody else has read in the 
press.
    Mr. Zeldin. Okay. So you are unable to confirm the accuracy 
of anything that was allegedly said?
    Mr. Shapiro. Absolutely unable.
    Mr. Zeldin. Okay. Well, I appreciate that.
    And I guess, you know, for the panel, what kind of a 
message, what kind of impact does it have if all of the reports 
are true? What happens if Secretary Kerry had asked Agha to 
convey to Abbas, ``Hold on and be strong,'' to tell Abbas that 
he should stay strong in his spirit and play for time, that he 
will not break, and that he will not yield to President Trump's 
demands. Reportedly, the former Secretary wanted to convey the 
message that Trump will not remain in office for a long time. 
It was reported that Kerry said that within a year there was a 
good chance that Trump would not be in the White House.
    Any reflections from anyone in the panel as far as how that 
relates to this conversation of clarity on messaging, policy, 
and chain of command?
    Mr. May. One hopes that Mr. Kerry's remarks were 
misreported. If he actually said that, if he actually urged the 
Palestinians not to negotiate, not to be flexible, not to look 
for a solution, I think he was very misguided.
    Mr. al-Omari. Again, I mean, there is--I don't know about 
the veracity of the reporting, so I can't comment on it.
    All I would say is, actually, the Palestinians right now 
are hearing a different message from some of the U.S. allies in 
the region. What they have heard from King Abdullah from 
Jordan, from President Sisi, and from Mr. Jubeir of Saudi 
Arabia is the fact that there can be no leader but the United 
States for the peace process.
    The challenge now is how do you create a diplomatic 
framework in which we can walk them down from that tree and 
actually resume some sort of negotiation, and there are some 
interesting ideas out there.
    Mr. Shapiro. I would just say, again without knowing 
anything about it other than what has been written in the 
press, that I do think President Abbas went way, way over the 
line of acceptable discourse in the speech he gave on January 
14th and, really, I believe, signaled the end of his role as a 
potential participant in negotiations for a two-state solution.
    I think this subsequent Palestinian search for an 
alternative mediator besides the United States is fruitless. I 
don't believe there is another actor in the international 
community that can play the role that only the United States 
has historically played and, I believe, can play in helping 
even Palestinians achieve their aspirations in a negotiation. 
It may be that there are roles for others to play, but it is 
going to be a U.S. leadership role or it is not going to 
happen.
    Mr. Zeldin. Well, thank you all for that.
    And, Ambassador, are you familiar with how it got into the 
MOU provision that the United States can't provide any more aid 
than what was agreed upon? Are you familiar with that?
    Mr. Shapiro. As with previous MOUs, the understanding by 
both governments was that the levels agreed to in that MOU 
would be adhered to unless both governments, together, came to 
the Congress to seek additional funding. That was a provision 
in previous MOUs, and it was included in the one signed in 
2016.
    Mr. Zeldin. So your understanding of that interpretation is 
that if Congress wants to provide additional aid to Israel 
nothing in the MOU would prevent it?
    Mr. Shapiro. Well, my understanding is that Congress is a 
co-equal branch of government and has the power of the purse 
and can obviously legislate accordingly in negotiations with 
the executive branch.
    What that MOU committed both governments to was to adhere 
to those levels of funding unless they mutually agreed that 
they should be changed. And it was certainly contemplated that 
in a time of extreme emergency or extreme need that there would 
be easily the possibility that they could be adjusted, but that 
the agreement exists so that both sides have predictability of 
expectation of those levels.
    Mr. Zeldin. A real quick question. Do you believe that the 
United States should have vetoed U.N. Security Council 
Resolution 2334?
    Mr. Shapiro. I am on record saying that was not what I 
recommended. We do at the time--I believe it would have been--I 
would have preferred we had ended up with something like the 
Quartet report of 2016, which was a more balanced document.
    Many things have been said about that resolution that I 
think are not true or very, very highly exaggerated. I don't 
think it has had anywhere near the effects that people have 
said. But I am on record saying I had recommended we take 
another path.
    Mr. Zeldin. Okay.
    I really thank you all for being here.
    And thank you again, Ambassador, for answering a few 
tougher questions.
    And, again, from my experience firsthand with the 
Ambassador, seeing him interacting with the Israelis in 
country, he certainly left a very positive impact on behalf of 
our country from those efforts and those relationships.
    So thank you again for your service.
    Mr. Shapiro. Thank you, Congressman.
    Ms. Ros-Lehtinen. I echo those remarks. Thank you, Lee.
    And Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair.
    And thank you, again, to our witnesses.
    I would like to first associate myself with the remarks of 
my colleague Congresswoman Frankel, that our support of Israel 
has always been a bipartisan approach; it is very longstanding 
in this committee and this Congress and this country. I think 
it is because of the shared values between our two countries. 
And it makes the absence of a coherent policy in this area 
particularly alarming to many of us.
    I would like to report that Secretary Tillerson, at a press 
conference just moments ago in Jordan, said that he has seen 
elements of President Trump's plan for peace in the Middle East 
and that the proposal is fairly well-advanced. And he wasn't 
able to give a timeline but says it has been under development 
for several months. So who knows? There may actually be a plan, 
which hopefully we will learn about someday.
    But I hear from the really thoughtful testimony of the 
three witnesses that there is a recognition that this is not a 
moment--Ambassador, you said that there is no chance for 
breakthrough or even resumption of negotiations.
    Do the other two witnesses agree? Yes.
    So, while there is a lot of talk about the big deal that is 
secretly being planned, it seems like the people who actually 
know the most about this conflict in this region think that we 
have to be much more pragmatic and find some small steps in the 
right direction, as the Ambassador said, that will preserve the 
viability of a two state, two people living side-by-side in 
peace and prosperity.
    And I am wondering, what are those steps? What can we do, 
what can the United States do, to promote the viability and try 
to preserve that?
    And I know a lot of the testimony, your written testimony, 
talks about succession planning and, kind of, the leadership 
that is required. And, in fact, Mr. May, in your written 
testimony, you said, ``The administration, with congressional 
support, should attempt to work with Saudi Arabia, the UAE, and 
other Sunni Arab partners, as well as any pragmatic elements 
within the Palestinian Authority to create a leadership 
succession plan, one that will empower Palestinian leaders who 
are open to conflict resolution and do not see peaceful 
coexistence with Israel as tantamount to defeat. Without such a 
plan in place, the possibility of chaos, violence, and 
instability following Mr. Abbas' passing looms large.''
    So I just wonder what the panel's thoughts are. I think 
everyone agrees that leadership in the Palestinian Authority is 
necessary. It seems unlikely, in this moment, that there will 
be leadership that will actually be serious about the peace 
process. But what is your assessment of that? And what is the 
likelihood that some of the changes in the region, particularly 
with Saudi Arabia and potential new partnerships or cooperation 
with Israel, provide some leverage? Is there anything that we 
can do to promote that?
    Maybe start with you, Ambassador, and then just go down the 
line. I know there are a lot of questions there.
    Mr. Shapiro. Sure.
    I do believe that the now open secret of the strategic 
cooperation that exists between Saudi Arabia, the United Arab 
Emirates, other Gulf states, other moderate Sunni states, and 
Israel is a real opportunity. It is an opportunity for those 
states to demonstrate to the Israeli public, to the Palestinian 
public, to their own publics that this is not something to be 
kept hidden and to actually demonstrate what the future can 
look like of a region in which there are open borders and open 
trade and exchanges of all kinds. That should be able to be 
done now, regardless of what is happening on the Israeli-
Palestinian arena directly.
    I believe they also can be partners in helping, let's say, 
put Palestinian expectations in a reasonable frame of mind, 
that it will have to include recognition of Israel as a Jewish 
state, that it will have to end the myth of a mass return of 
refugees to the state of Israel, pre-1948 Israel.
    So there are things that they can do, and those don't need 
to wait for the resumption of negotiations.
    Mr. Cicilline. Okay.
    Mr. May?
    Mr. May. Yes. Look, I think that we have a leadership 
crisis now. I think we all agree on this panel, and I think you 
do as well in the subcommittee, that the Israelis cannot make 
peace with Hamas, that is not realistic. And that Mahmoud Abbas 
has taken himself out of the running as a partner for peace. So 
we have a leadership crisis now. We have a succession crisis on 
the horizon.
    I think it is important to begin to address that now. What 
happens when Mahmoud Abbas, who is 82, not in great health, a 
heavy smoker, what happens when he passes from the scene? As I 
say in my testimony, under Palestinian basic law, initially 
somebody from Hamas takes over.
    And then the idea of free elections--we haven't had free 
elections. We haven't had, I think, free elections ever. The 
last elections were a long time ago. As we said, Mahmoud Abbas 
is in the 13th year of a 4-year term.
    I think honesty is important. I agree with the Ambassador. 
In the beginning, not at the end, of the negotiation process, 
certain things should be established: One, that ``two states'' 
means a Jewish state and a Palestinian state. That absolutely 
is important.
    I think it is important, too, that UNRWA provide 
transparency. We do not have 5 million refugees who must be 
settled in Israel, the Israelis will never accept it. We have 
probably 20,000 or 30,000. There is a report that makes this 
clear. That report should be unclassified so Congress gets to 
see it.
    Mr. Cicilline. Mr. al-Omari?
    Mr. al-Omari. If I may, the issue of succession and the 
issue of the Arab states, but I would start, maybe, with a 
disagreement with my colleague. I think President Abbas can be 
a partner for peace, but he has to retract and walk back the 
unacceptable statements that he made. But, ultimately, we have 
to make peace between Israelis and Palestinians with the 
current--or with the leaders that they have.
    Now, that said, when it comes to succession, the first 
thing about it is what not to do. We cannot pick a successor 
for the Palestinians. We have never been good in managing other 
people's politics, and I don't think we should do this right 
now.
    Instead, we should take our cue from President George W. 
Bush when he pushed for reform in the Palestinian Authority. 
And he pushed very hard, and he created an international 
coalition, European and Arab. That was key in creating a 
political space. That political space allowed new leaders to 
emerge, including Salam Fayyad and people like Salam Fayyad. We 
have to do the same. We have to prioritize reform, both 
governance and political, and let the Palestinian system 
produce its own. And there are plenty of talented people right 
there.
    In terms of the Arabs, I do believe that expecting open 
Arab-Israeli relations right now is unrealistic. Desirable as 
it may be, it is unrealistic, for a simple reason: The Arabs 
are getting what they need from this relationship under the 
table. Why should they pay the price to go over the table?
    Instead, we should test the Arabs' resolve in terms of how 
they approach the Palestinians, and that is two things. First 
of all, they have to be a key actor in managing the issue of 
succession. They tried that a couple of years ago but walked 
back because they felt there was no American cover. We should 
give them that cover. And, two, to actually get them in 
private, not in public, because they won't do it in public, in 
private to engage in conversations with Abbas to lower the 
expectations. And when I say ``conversations,'' that, of 
course, includes pressure. We can bring them in--again, don't 
have an objective that is too high, they will not come in. Have 
a realistic one, test them on that, and lock them in the 
process.
    Mr. Cicilline. Thank you so much.
    I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, David.
    Ambassador Wagner.
    Mrs. Wagner. Thank you, Madam Chairwoman.
    I am a proud supporter of the democratic state of Israel. 
Israel is a beacon of peace and human rights in the Middle 
East. And though I am increasingly pessimistic that peace 
negotiations are going to progress in the near term, I am 
adamant that we continue building the bilateral relationship 
and also rejuvenate our efforts to promote Palestinian reform.
    Mr. May and Ambassador Shapiro, very quickly, you both 
mentioned in your testimonies that Israel and Palestine have 
thriving high-tech sectors. Do you think this is an area where 
both sides can cooperate?
    Mr. May. Well, in theory, I do, and I think it is very 
necessary. I think a viable Palestinian state, a Palestinian 
state that would not be a permanent ward of the international 
donor community, must have economic cooperation with Israel, 
and that would include the high-tech sector.
    But, in order to do that, you have to have a Palestinian 
leadership that favors economic normalization and other forms 
of normalization. You can't have BDS.
    Right now, what you are describing, which is very 
necessary, as necessary for Palestinians, who should have jobs 
and prosperity, as it is for Israel. But right now we do not 
have a Palestinian leadership that favors that or encourages 
that. We should press for that.
    Mrs. Wagner. Mr. Shapiro?
    Mr. Shapiro. Congresswoman, there is already engagement 
between the emerging Palestinian high-tech sector, where there 
is a lot of talent, and the very, very vibrant Israeli high-
tech sector. In fact, I think one finds that the Palestinians 
who engage in those professions are among the least politicized 
and among the most pragmatic and the most forward-leaning in 
terms of engagement with Israeli colleagues that there are.
    There are some good examples, Israeli companies that have 
set up R&D centers in Palestinian towns, such as the new city 
of Rawabi.
    In my written testimony, I highlighted an article in 
Foreign Affairs magazine from last summer which lays out an 
approach the United States could take to support the emergence 
of that Palestinian high-tech sector, completely bypassing the 
Palestinian Authority and, in fact, I think, empowering the 
most--the elements of Palestinian society that are most 
forward-leaning and the ones we want to work with.
    Mrs. Wagner. I have a lot of questions and a short amount 
of time.
    Mr. al-Omari, you spoke about prospects for engagement with 
moderate Arab states. Regional powers like Saudi Arabia, 
Jordan, Egypt, and the UAE have much to gain from a coalition 
with the U.S. and Israel on security coordination against Iran.
    But when Iran sent a drone into Israeli airspace on 
Saturday, prompting counter-strikes against Iranian-built 
targets in Syria, in which Israel lost an F-16 fighter, only--
only--the United States of America expressed support for 
Israel.
    Is this representative of the way Arab states will try to 
navigate the Israeli-Iranian rivalry, sir?
    Mr. al-Omari. These Arab states have their own public 
opinion to take into account, so when it comes to official 
messaging, most of them were silent. But what is very 
interesting this time, is if you look at the state media, or 
the state-controlled media in these Arab countries, if you 
look, for example, at Qatari-controlled media, it celebrated 
the downing of the F16. It celebrated it. If you look at the 
Saudi-owned media, which is active in the UAE and Egypt, in 
particular, there was almost no mention highlighting the 
Iranian intrusion into Israeli sovereignty. So you are not 
going to see it now in terms of official opening. They still 
have to be very careful about the public, but we are seeing a 
very different tone when it comes to public messaging. That is 
important. That needs to be encouraged, I believe.
    Mrs. Wagner. Thank you. Ambassador Shapiro, and I want to 
thank you for your service, too, also, sir. I appreciated that 
you highlighted the reprehensible remarks Abbas made in January 
regarding the Jewish people's historic connection to Israel. 
That behavior is wildly inappropriate in a leader charged with 
participating in serious peace talks. You have a deep 
familiarity with actors on both sides of the conflict.
    Looking beyond Abbas, as we have talked a little bit, and 
Mr. May has mentioned this, too, is there a new generation of 
thoughtful and proactive Palestinian leaders who are willing to 
work with the United States and Israel?
    Mr. Shapiro. There is certainly an emerging generation, but 
I have to say, one of the great flaws of the current generation 
of Palestinian leaders is their failure to really empower a 
next generation.
    People often ask me what is the succession for Abbas, and I 
say: It is the biggest black box in the Middle East. I don't 
know any Palestinian who really knows. I don't know any Israeli 
who really knows. I don't know any other Arab in other 
countries who really knows either. We can all name eight or 10 
people who might have a role. I agree strongly that we will not 
be able to pick a successor to Abbas, and if we try, we will 
probably screw it up.
    There are actors in the region who might be able to help 
steer that succession in the first instance toward some of the 
more moderate possibilities, and in the second instance, try to 
help build up that more moderate, business-minded, pragmatic 
Palestinian generation, which has, so far, really been excluded 
from politics.
    Mrs. Wagner. Thank you. I appreciate that. My time is 
expired. I yield back, Madam Chair.
    Ms. Ros-Lehtinen. Thank you so much, Ambassador.
    And now, Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman, and thanks again 
to the witnesses.
    As I said before, not a day goes by that I don't pray for 
peace for Israel. To my core, I believe peace is only going to 
be realized by a two-state solution, the Jewish democratic 
state of Israel living in peace and security side-by-side, an 
Arab state.
    Unfortunately, I personally don't believe such a peace is 
on the near horizon. Now we heard earlier, one of my colleagues 
said something different, so I have a number of questions.
    Do any of the three of you believe that we are closer to 
peace today than at any other time in the last 70 years?
    Mr. Shapiro. I do not.
    Mr. al-Omari. It is almost ironic in the sense that 
politically, we certainly are not. The content of what peace 
looks like has never been clearer than it has been in the past. 
This is different from the 1990s and the early 2000s, where we 
had to guess what peace looks like. We know what it looks like. 
What we don't have are the leaders who will get us there.
    Mr. May. But I would also say that we have never been close 
to peace. We have never been close to peace for coexistence or 
to a resolution of the conflict. We need to learn from the 
mistakes of past peace processes if we are going to get 
anywhere this time around.
    Mr. Schneider. Fair enough. I am thinking how to best put 
that in words. I am going to put it in my own words.
    Do you believe that the Israeli people want peace?
    Mr. May. Profoundly.
    Mr. Shapiro. Absolutely.
    Mr. al-Omari. I would say it is actually opinion polls, for 
what it is worth, show an erosion of support for peace. An 
erosion based on the belief that peace is not attainable. If 
you ask Israelis, and, by the way, Palestinians, they will tell 
you: We want peace. We don't think the other side wants it. 
Therefore, it is not going to happen. So we are starting to see 
an abandonment out of despair, not out of rejection of the 
idea.
    Mr. Schneider. So I will draw a distinction between 
confidence that peace is on the horizon, Bashana Haba'ah, and 
the difference between wanting peace. Having lived in Israel 30 
years ago, having been to Israel countless times, all the 
Israelis I know want peace, want peace for their children, want 
peace for their neighbors.
    Who, if anyone, is positioned to be Israel's partner for 
peace at this moment, within the Palestinians?
    Mr. al-Omari. In theory, you see the position of the PA 
continue to support the two-state solution. In practice, we 
have seen many policies and statements that makes it very 
difficult. What I would say is, again, we saw this during the 
Bush presidency where if we push for the kind of reform that 
allows voices--and these voices exists--to come out, whether on 
reform or in terms of promoting pragmatic peace-loving 
policies, they will emerge.
    However, if we allow the current trend of despotism, of 
totalitarianism, to continue in the PA, these voices are 
scared. These voices feel that they are persecuted and, 
therefore, they will not emerge. A lot depends on our ability 
to create and help create this political space for these voices 
to emerge. And as the Ambassador said, the political mechanism 
for them to be empowered and to actually be well-positioned to 
become effective political actors.
    Mr. Schneider. Okay. Mr. May.
    Mr. May. I don't disagree with my colleague. I would just 
say this: There are no voices in the Palestinian Authority who 
say, not only do we want our own state, they do, but we want 
that state to no longer be in conflict with the state of 
Israel. Gaza was--as you know, in 2005 the Israeli left Gaza, 
it did not become Singapore in the Mediterranean; it became a 
basis for terrorism, missiles and terror tunnels against 
Israel. The West Bank could do that, too.
    Mr. Schneider. And thousands of rockets over the years. I 
am going to shift gears a little bit.
    With Iran establishing a permanent presence in Syria, Iran 
building indigenous rocket missile capability in Syria and in 
Lebanon, and the humanitarian crisis brewing in Gaza, Hamas. 
Abbas' message delivered a few weeks ago, and as was said, 
earlier Abbas, in the 13th year of his 4-year term, increasing 
terrorism activity in Sinai.
    I was going to ask a question, but I will make a statement. 
I think it is fair to say that Israel faces more threats now on 
its borders than it has in a while, and it is of grave concern. 
This is highlighted, obviously, in the incursion this past 
weekend of an Iranian drone into Israeli territory, and an F16 
shot down over Israeli territory.
    My question is, and I am going to start with you, 
Ambassador Shapiro, what signal does it send to Israel and the 
region that while Secretary of State Tillerson is in the 
region, he hasn't found it convenient to stand shoulder to 
shoulder with the Israelis and send a message to the world that 
we will protect, we will work with Israel, we will help Israel 
defend herself?
    Mr. Shapiro. It is a missed opportunity. Not because it 
means the administration does not support Israel's right to 
defend itself. It stated that clearly. But the demonstration of 
that commitment in real time, during crises, that the security 
coordination--where the strategic level, the tactical level, 
and the diplomatic level is taking place is always beneficial. 
Frankly, I think it would have even been more beneficial for 
Secretary Tillerson, for his credibility on his other stops in 
the region, to show that he stood shoulder to shoulder with our 
closest ally.
    When he showed up in Cairo and Amman and the Gulf, and now 
in Beirut, and cannot report directly to them on the 
conversations he has had, and the ability to say where we are 
backing certain Israeli security requirements and red lines, I 
think it makes him less credible and, therefore, it harms the 
United States.
    Mr. Schneider. Mr. al-Omari.
    Mr. al-Omari. In terms of actual support for Israel, I 
think this administration is clearly supporting Israel.
    Mr. Schneider. Absolutely.
    Mr. al-Omari. Yet in terms of the messaging, I believe, and 
I agree with the Ambassador, this is a missed opportunity. In 
general, this administration has not yet managed to fine-tune 
its messaging to the region. This was an important message to 
be sent. They missed it. However, we have a bigger problem. If 
you zoom out a little bit, many of the strategic situations 
that you described are a result of a vacuum in the region. And 
the vacuum that we have not filled yet. We hear a lot of great 
pronouncements, but as of yet, these have not been translated 
into a policy. And until we see a policy and a strategy, I fear 
that not only for Israel, but also for other U.S. allies in the 
region, the strategic outlook will remain quite grim.
    Mr. Schneider. Mr. May.
    Mr. May. I will just say that I agree with my colleagues on 
this point.
    Mr. Schneider. Thank you. And just for the record, with my 
colleague, let me first associate with what my colleague Ms. 
Frankel said, the support for Israel has always been 
bipartisan. It is critical that it always remains bipartisan. 
The loss of that would be a terrible loss for the U.S.-Israel 
relationship and security of both our nations.
    My colleague, Mr. Mast, and I sent a letter to Secretary of 
State Tillerson asking him to stop in Israel to make a clear 
statement. As was said, the U.S. stands with Israel. That 
remains as true today as it was before. At this moment, the 
more we can demonstrate it, I think the better it will be. And 
with that, I yield back.
    Ms. Ros-Lehtinen. Thank you, Brad. Mr. Rohrabacher of 
California.
    Mr. Rohrabacher. Let me just say I think the administration 
is doing well in projecting those policies that will bring 
peace rather than the 8 years we have had that have brought 
chaos and a rise of power of radical Islam, the undermining of 
moderate forces in the Middle East, and the elimination of 
secular governments. That is what the last administration, 
which was so definable and so coherent, gave this 
administration.
    And let me just say, I think the policy is really good. 
That is, we are going to do things. Specific things, the 
policies will be recognized as supporting Israel, as long as 
the Palestinians are unwilling to do those things that will 
bring peace. For example, suggesting that we are not going to 
give aid to the Palestinians if they continue to attack Israel, 
and we are not going to give aid to those countries that are 
participating in that.
    For example, we are recognizing Jerusalem for the first 
time as the capital of Israel. Those are tangible. Those aren't 
incoherent. And those send a signal. They send a signal to 
those people who would rely on bloodshed and terrorism to 
achieve their goal. Those people will get that message as we 
continue with specific policies that makes sense to achieving 
peace in that region, by eliminating those people who believe 
in violence and terrorism from their position of leverage.
    I used to believe in the two-state solution. I was a backer 
of a two-state solution. I thought, there you go. I don't 
dislike the Palestinian people, I think they are wonderful. I 
think most people in this world are good people. But there is a 
conflict here that we have to face as adults, and unless we do, 
we are not going to bring peace any closer, either for the 
Palestinians or the Israelis.
    But as I mentioned earlier, Israel gave up authority on 
large parts of the West Bank, totally in Gaza, withdrew from 
the Sinai, did so many of these things, and only two demands: 
Don't use violence and terrorism against us, and, please, 
recognize our right to exist. Well, the Palestinians have done 
neither of those. So what have they given up? Nothing. And we 
are suppose to put pressure on Israel and blame them when they 
have given up nothing and Israel has given up all of this?
    Yeah, all we need from the Palestinians is a recognition 
that they don't have a right of return. By claiming the right 
of return--please correct me, and I am putting this out to the 
panel--isn't the right of return basically someone who says 
that we don't believe Israel has a right to exist? Isn't that 
what it really says, if someone refuses to say: No, we don't 
have a right to send in millions of Palestinians into what is 
now Israel?
    And number two, of course, we should expect, the 
Palestinians to say and do, we are not going to sponsor 
terrorist attacks from those territories that Israel gave up 
authority on, whether the Gaza Strip or the West Bank.
    Yes.
    Mr. May. Mr. Congressman, I think this gets back to my 
point about UNRWA. The U.N. High Commissioner for refugees 
recognizes refugees as people who fled from a land. UNRWA has a 
different definition; the son, the grandson, the great 
grandson, the great, great grandson can be a refugee. So you 
have gone from about 700,000 refugees--about the same number as 
Jews who fled and were made refugees from Arab and Muslim lands 
in the same period, late 1940s-early 1950s--to today, about 15 
million so-called refugees, who are not refugees under the 
normal definition.
    You would have 14 million in just a few years based on 
current demographics. At that point, the population of Israel 
now is only 8 million. About 20 to 25 percent are minorities 
now. So what you are saying, if you are saying these refugees--
so-called--more than 5 million of them, have to be settled in 
Israel, you are saying that Israel will become a Palestinian 
majority state, Hamas will remain as an entity, and Jordan 
would be what it is, a Palestinian majority state in eastern 
Palestine.
    Yes, this is why we need honesty. If we know that there are 
20,000 or 30,000 people who left in 1948, we can figure out 
something to do with them. Five million people, that is a way 
to say Israel cannot exist as a Jewish state.
    Mr. Rohrabacher. Can we have a two-state solution as long 
as one side says, we have a right to send in millions of people 
into your country?
    Mr. al-Omari. First of all, when it comes to a right of 
return, I think it was very clear from the early stages of 
negotiations. We saw it in Camp David, and ever since that, the 
Palestinians would not ask for implementation of a right of 
return. We saw this clearly in the Arab Peace Initiative, which 
was produced in Beirut----
    Mr. Rohrabacher. So you are saying the Palestinians' 
position is not that they are not demanding a right of return?
    Mr. al-Omari. What I am saying is that in negotiations and 
in the Arab Peace Initiative, it was made very clear that any 
return would be subject to agreement with Israel----
    Mr. Rohrabacher. I talked to a lot of Palestinians--and as 
I say, I am open-minded to their arguments, they are human 
beings, and should be treated that way--and none of them will 
agree that they don't have a right of return.
    Mr. al-Omari. Except this is, again, is the official 
position. But, if I may, on the one issue of security--I mean--
this is something that I have heard in some interventions. 
Palestinian Israeli Security Cooperation is, at its best, since 
the 1990s, and by the recognition of military and security 
establishment. We heard, actually, the Israeli chief of staff 
only 2 weeks ago talk about it. This weekend, two Israelis 
strayed into a Palestinian city, Jenin, and Palestinian 
security forces actually extracted them.
    We see a lot of security support. There is one thing to be 
said for Abbas, he is against violence, and he has been 
persistently against violence. When it comes to security, I 
think the track record is good. And by the way, great, great 
credit goes to the U.S. through the Office of the Security 
Coordinator which did this, and to Jordan which was shepherding 
this point.
    Mr. Rohrabacher. We can talk at length, but when you 
condense it down to, do you believe that millions of people 
should be able to go into Israel, and they refuse to say, no, 
we are not demanding that, well that is the stumbling block. 
And I would hope that we, as I say, I had faith in the two-
state solution, but I am not stupid. And certainly, the 
Israelis, after suffering casualties from this situation, 
aren't stupid. If people believe in peace there, they should 
say, we don't believe in the right of return for millions of 
people, and we are going to cease killing a bunch of Israelis 
with rockets and terrorists attacks. That is all. That would 
bring peace. But we don't see it.
    And so that is why this administration is not pressuring 
Israel, but instead, is doing some things to show we are 
willing to back up Israel because they are open to these 
solutions, but we don't have any fear about cutting the 
Palestinians off if they are not going to go in that direction.
    Mr. Shapiro. Congressman, if I may.
    Mr. Rohrabacher. Yes, sir.
    Mr. Shapiro. When Prime Minister Netanyahu in his Bar-Ilan 
University speech in 2009, spoke about a two-state solution for 
the first time, a demilitarized Palestinian state that 
recognize the Jewish state, he was essentially hitting on the 
two issues you have raised: Ceasing to call into question 
Israel's status as a Jewish state, including through the 
perpetuation of the myth of the return of many millions of 
Palestinian refugees and their descendants; and the 
demilitarization as the one-word description of a security 
regime in which Israel can be guaranteed that what happened in 
Gaza after they left is not repeated in the West Bank, which 
would be a completely unacceptable outcome.
    Every negotiation that the United States has been involved 
in, including the ones I participated in, recognized those 
requirements and tried to steer toward those outcomes. And I 
absolutely agree with you, those are essential components of a 
two-state solution. And it may be, for the reasons we have been 
discussing, that at this point, there is no Palestinian 
leadership, and it may be that there is no Israeli coalition at 
the moment that is really committed to the same outcomes.
    My only concern as a matter of U.S. interest, is if, while 
waiting for that Palestinian leadership to emerge and that 
Palestinian change of attitude to emerge, the two-state 
solution sort of falls off the cliff to where once they are 
there, it is impossible to achieve it, that, too, will call 
into question Israel's status as a Jewish and democratic state. 
That, too, will pose long-term security risk to Israel. And 
that, too, will pose a real harm to U.S. interest.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Rohrabacher. Don't hold your breath while you are 
waiting for it.
    Ms. Ros-Lehtinen. Thank you so much, Dana.
    And Ms. Frankel of Florida. Thank you, Lois.
    Ms. Frankel. Thank you, Madam Chair. I wanted to start off 
where I ended my earlier remarks, which were how important I 
think it is that we look at this issue of the peace and 
security of Israel, and maintaining Israel as a democratic 
Jewish state in a bipartisan way.
    That does not mean that we are not allowed to question the 
policies and the actions of different administrations. I think, 
though, that intent and motive, I don't question the intent and 
motive of this administration, nor our past administration in 
terms of wanting to accomplish this goal. And in that regard, I 
just--I want to thank our chairwoman, and also our ranking 
member, who has left the meeting because of a very serious 
emergency in his district, but they are an example to me of 
just phenomenal leadership in trying to get a grasp on these 
issues. And I want to thank you, Madam Chair. I really do. And 
I thank Representative Deutch.
    We heard, and I don't know, maybe Madam Chair, you would 
remember this, but we heard the testimony within the last few 
years of Robert Wexler, who, I believe, works for the Abraham 
Center for Peace. I want to try to paraphrase what I remember 
him saying, and then I would like to have your comment.
    ``The Jewish population from the Mediterranean Sea to the 
Jordan River will soon be a minority.'' I would, as I said 
before, I believe it is a bipartisan desire here to see Israel 
with secure borders that endures a democratic and Jewish state. 
The demographic trends are not working in Israel's favor. And 
it just seems to me that time is on the side of the 
Palestinians. I would just like you to comment on that 
observation.
    Mr. Shapiro. Congresswoman, I think those demographic 
figures are well known and fairly well understood. And I, 
indeed, think it very much underscores why Prime Minister 
Netanyahu, after many years in which he did not support that 
outcome, did support a two-state solution. And more 
specifically, said what he wants to avoid is a binational 
state. And that is what you are, I think, referring to. A 
situation which under the framework of one state, you have 
basically equivalent Jewish and Arab populations. And then 
Israel faces some very, very profound choices about whether to 
focus on maintaining the Jewish character or the democratic 
character, and it is very difficult, maybe impossible, to do 
both.
    And so for all the reasons we have been stating, including 
much responsibility that falls on the Palestinian side, or at 
least on the Palestinian leadership side, we aren't close to 
solving that. But if we reach a stage where that becomes 
impossible, then those really terrible choices that face Israel 
and face us as Israel's closest ally and where our interest is 
bound up in those choices come into play.
    Mr. al-Omari. The one-state outcome, and I don't call it a 
solution because it is not a solution. A one-state outcome is 
in no one's interest. And in that regard, time is not on 
anyone's side. This one-state construct means the end of 
Zionism, which is really about the right of the Jewish people 
to their own state. You would have a binational state, no 
longer a Jewish state, but it is also the end of Palestinian 
nationalism. The desire of the Palestinians to have their own 
state and their own representation.
    Time will kill both ideas. And in the meantime, more and 
more people will die, more and more people will suffer. That is 
why I am still a believer that the two-state solution is the 
only option. The question now is how do we do it? In a smart 
way, in a way that will get the objective and actually get us 
there in a measured way that understands the political 
constraints of the reality today.
    Mr. May. I think, Congresswoman, that there is some debate 
over the demographics, but I think we can put that aside. The 
pivotal question seems to me, when you say that time is on the 
Palestinian side, what does that mean?
    Does that mean Israel needs to make concessions that would 
sacrifice and compromise its security? I don't think so, I 
think the Israelis are open to a two-state solution. I think we 
have seen that. But it has to be, again, two states for two 
peoples with the Palestinians recognizing that one of those 
peoples is the Jewish people. We don't have that at this 
moment.
    Failing that, there will not be movement. And I don't think 
one can assume that, therefore, they will be moving to a one-
state outcome because a one-state outcome would mean that the 
Israelis are making citizens of millions of people who believe 
that they will be martyrs if they plunge a knife into the 
throat of a Jew. I do not see Israelis doing that, now or ever. 
I think they are resolute that they are going to protect what 
they built, which is a Jewish state in part of their ancient 
homeland.
    Ms. Frankel. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Lois.
    I just had a question about U.N. action. What we think will 
happen or not happen. And as we know, Abu Mazen has always 
approached his goal of realizing a Palestinian state on a dual 
track, direct negotiations, supposedly, with Israel, and then 
unilateral statehood schemes at the U.N. And I would argue that 
he only feigns interest in the former in order to place greater 
emphasis in the latter.
    So he will be at the U.N. Security Council next week, 
likely pushing for U.N. action. We can't predict what will 
happen, but we can expect that he will push resolutions at 
UNESCO, and mirroring his speech that we have all talked about 
where he claims that Jews have no historical or cultural ties 
to Jerusalem.
    So given his efforts on unilateral statehood, should we 
even try to engage him at this point, bring him to the table? 
And what do you think will happen, if anything, at the U.N. in 
this coming session?
    And we will start with you, Mr. al-Omari.
    Mr. al-Omari. In the U.N., I suspect he will do what he has 
been doing so far, which is actually playing a balancing act. 
On the one hand, he wants to create noise back home. This is a 
political tool for raising his political popularity back home. 
We will hear a tough speech, though I hope that he will not, 
again, cross these lines. But what he will not do is join any 
U.N. agency which triggers American cuts of support for the 
agency.
    After UNESCO, he got under a lot of pressure from many to 
say not do that again. So he will join treaties, et cetera. I 
suspect he will also ask to join the U.N. in order to get a 
U.S. veto, because a U.S. veto looks good for him. He sounds 
tough to his population. He will do that. There is no doubt.
    What we need to do is a two-track strategy. On the one 
hand, we need to make it very clear that there is a red line 
that he cannot cross, and I think we need to deliver this 
through our allies, not only directly. But also, start 
constructing a ladder to get him down from that tree. And that 
ladder is a quartet with the addition possibly of Jordan and 
Egypt with American leadership. I think if we create that, I 
think we can start bringing him down from that, and we can 
resume normal diplomacy.
    Ms. Ros-Lehtinen. Thank you. Anyone else? Thank you, Cliff.
    Mr. May. Let me just say, Madam Chairman, the U.N. has not 
and I think we can expect, will not play a positive role in 
terms of trying to resolve the Palestinian-Israeli conflict. 
And the U.N. Human Rights Council is probably the worst agency 
within the U.N.
    It is a collection of chronic and egregious violators of 
human rights that bashes Israel constantly. This is something 
else I would urge the Congress to look at and see what can be 
done about it. U.N. reform, reform of this agency and of UNRWA, 
I think is imperative, and I have recommendations along those 
lines in my testimony.
    Ms. Ros-Lehtinen. Good. Thank you so much. Mr. Ambassador.
    Mr. Shapiro. I think as was stated, President Abbas will 
probably try to play some of the same cards he has played 
before. And I think the U.S. position needs to remain that 
something that recognizes that a Palestinian state that has not 
emerged through negotiations is not something that we can 
support. I think that will continue to be the U.S. position.
    I actually think, though, where he may find a more fertile 
ground to make some progress, in his mind, is by going to 
European governments and trying to promote recognition of a 
Palestinian state there. Of course, many other countries around 
the world already recognize a Palestinian state. We do not. And 
that has not been brought about by negotiations. But the 
European governments are sort of the prize for him. It may be 
that that is where he will seek to try to counterpressure what 
he feels he is getting from the United States, and I think 
there are some governments that are considering that. That is 
obviously going to be an important diplomatic challenge for the 
administration to focus on.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador. And 
thank you to our excellent row of panelists, thank you to the 
audience, and all the members who visited today.
    So with that, the subcommittee is adjourned. Thank you to 
all.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

  
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
